         estimony

                     STATEMENT OF
                   DONALD MANCUSO
               ACTING INSPECTOR GENERAL
                DEPARTMENT OF DEFENSE
                      BEFORE THE
          SUBCOMMITTEE ON NATIONAL SECURITY
          VETERANS AFFAIRS AND INTERNATIONAL
              RELATIONS, HOUSE COMMITTEE
                ON GOVERNMENT REFORM
                          ON
          DEFENSE SECURITY SERVICE OVERSIGHT



Report No. D-2000-189        DELIVERED: September 20, 2000



             Office of the Inspector General
                 Department of Defense
Mr. Chairman and Members of the Subcommittee:



Thank you for this opportunity to discuss the results of recent

audits by the Office of the Inspector General, DoD, related to

the vitally important functions of personnel security clearance

investigation and adjudication.



Longstanding Personnel Security Program Problems



The procedures for determining what type of security clearance

is appropriate for each military and civilian position in the

DoD, conducting investigations to ensure that individuals merit

the degree of trust required for those clearances, and

adjudicating cases where investigations reveal adverse

information need to be both efficient and effective.   As with

most DoD management challenges, the huge scale of the Defense

Personnel Security Program makes it inherently difficult to

administer.   Several thousand security officers, located

throughout the Department, help managers to determine security

clearance requirements and handle the paperwork for requesting

clearances.   The Department estimates that more than 700,000

initial investigations are needed annually, as well as several

hundred thousand reinvestigations to update existing clearances.

Approximately 2.4 million DoD and contractor personnel hold
                                                                    2


clearances at any given time.   Hundreds of thousands of those

individuals change assignments during an average year and

thousands of programs and military units depend on having

individuals with current clearances available to carry out their

assignments.



Unfortunately, as your Subcommittee’s hearing last February

indicated, the Defense Personnel Security Program has serious

problems.   The most widely publicized of those difficulties is

the excessive time required for personnel security

investigations, which has resulted in enormous backlogs of

overdue clearance updates.   This problem was considered critical

in the 1980/81 time frame and was overcome at that time by

significantly increasing the staffing of the Defense

Investigative Service (DIS), which is now the Defense Security

Service (DSS).   Like virtually all other Defense agencies,

however, the DIS budget and staffing were drastically reduced as

part of the post-Cold War Defense downsizing.   In fact, the

40 percent DIS staffing reduction from 4,080 personnel in

FY 1989 to 2,448 in FY 1999 exceeded the average 32 percent

reduction for Defense agencies during the 1990’s.    There was no

comparable reduction in the investigative workload.
                                                                      3


With a tremendous volume of cases and related data to compile,

analyze and report on, the DSS needs effective automated

information systems.    However, the agency has lacked capable

information systems throughout its existence.



By 1994, the combination of reduced staff and inadequate systems

had caused the backlog of reinvestigations to grow again to

alarming proportions.    In February 1994, the Joint Security

Commission reported that the personnel security investigative

process was cumbersome, inefficient and in need of reform.      The

average time required for a single scope background

investigation had climbed steadily from 102 days in FY 1989 to

145 days in FY 1994.    Those numbers rose further to 220 days in

FY 1996 and 262 in early FY 2000.



In May 1996, the DIS became one of about 135 DoD Reinvention

Laboratories and began a multi-year business process

reengineering effort intended to overcome the disparity between

workload and investigative resources by improving productivity.

In August 1996, the Deputy Secretary of Defense directed a study

of DIS workload and alternative ways to handle the mission,

including converting DIS to a fee for service organization and

outsourcing.   The DIS, renamed DSS in 1997, responded with

additional measures intended to improve efficiency, including an
                                                                    4


automated systems modernization effort.   The centerpiece of that

effort was development of the Case Control Management System

(CCMS).   In September 1996, the Department also created an

Integrated Process Team, composed of representatives of the

investigative and adjudicative communities, to address the

numerous issues existing between those groups.   This was the

first of several teams formed by the DoD over the past few years

to address management problems in this area.   In addition, the

DSS unilaterally made numerous policy changes to streamline its

processes.



As the General Accounting Office reported in September 1999,

some of the DSS changes were ill-advised and merely created new

problems, especially in quality control over investigations.

The failure of CCMS after its implementation in October 1998 was

also a major setback.   Finally, DoD has lacked good information

on the existing or forecasted workload, and related resource

requirements, for both the investigative and adjudicative

portions of the program.



Over the past two years, senior DoD managers have become much

more involved in the problems at DSS than had been the case

previously, and have made several major changes, beginning with

the appointment of LTG (Ret.) Cunningham as Acting Director of
                                                                      5


DSS in June 1999 and Director in December 1999.     Over the past

year, DSS has taken action to implement GAO and IG

recommendations, cancel questionable DSS policies, and acquire

Air Force assistance to remediate the CCMS.     Another Integrated

Process Team reported to the Deputy Secretary of Defense on the

continuing backlog problem in January 2000, leading to his

decision to outsource part of the DSS workload to the Office of

Personnel Management and contractors.



Management Actions Needed



I would like to recap the advice that the OIG, DoD, has provided

to the Department over the past year regarding both the

personnel security investigative and adjudicative processes.



In April 2000, I testified on the issues confronting DSS before

the Senate Armed Services Committee.     Our position at that time,

which remains essentially the same today, was that the DoD plan

to quickly eliminate the backlog of overdue clearances through a

combination of outsourcing and internal changes at DSS was

overly optimistic.     Specifically, the DoD plan unrealistically

assumed that DSS could close an average of 2,500 cases per day,

starting in FY 2000.     In practice, however, DSS completed an

average of only 1,500 per day in the first eleven months of
                                                                   6


FY 2000 and was unable to reduce the backlog.   We also

questioned the realism of DSS workload projections, believing

them to be significantly understated, and cautioned that it

would probably take years, not months, to overhaul the entire

Personnel Security Program.



At the April 2000 hearing, in audit reports and during internal

discussions within DoD, we advised that the Department needed

to:



•   more actively oversee and manage the workload at the DSS and

    adjudication facilities, with the expressed intent of

    maintaining high standards for both quality and timeliness;



•   implement performance metrics that will measure both the

    quality and timeliness of investigative and adjudication

    workload;



•   periodically assess and adjust the resource requirements for

    DSS, outsourced investigative effort, and adjudication

    workload;



•   develop a uniform, DoD-wide priority system for security

    clearance investigations; and
                                                                   7




•   improve DSS tracking of security clearance requests and

    feedback to requestors on case status; and



•   closely monitor management of the Case Control Management

    System and the Joint Personnel Adjudication System.



Prioritizing Investigations



All of those actions remain very necessary today and most of

them entail sustained senior management attention.     Today I

will emphasize the last three of those items, beginning with

our concern over the need to prioritize the security clearance

investigative workload, which has been perhaps our most

controversial recommendation.



The April 2000 IG, DoD report on Security Clearance

Investigative Priorities (No. D-2000-111) discussed a number of

DSS case management issues.   The principal concern was the lack

of a meaningful process for prioritizing the workload.     We

determined that investigative resources were generally applied

on a first in, first out basis, so that clearance requests for

important programs and higher risk positions often languished

while investigators worked on routine cases.     Since timely
                                                                    8


investigations are a major problem, we deemed it particularly

unreasonable not to have a viable prioritization process that

both the requestors of the clearances and the investigators

understand.



The Office of the Assistant Secretary of Defense (Command,

Control, Communications and Intelligence) initially disagreed

with the feasibility of developing an investigation

prioritization method, but subsequently changed its position and

has been working with the Services and DSS to comply with the

recommendation.   I am frankly disappointed however with the slow

progress and concerned that it is so difficult to implement this

basic workload management tool.



Tracking Clearance Requests



In May 2000, we issued another report on DSS investigative case

management, Tracking Security Clearance Requests (No. D-2000-

134).   We reported that DSS lacked an effective means for

tracking the status of security clearance requests from the

other DoD components.



Between July and December 1999, the DSS could not identify, on a

case-by-case basis, why 12,354 of 302,352 electronic requests
                                                                   9


received did not result in investigative cases being opened.

The DSS provided possible reasons such as changes in type of

investigation, duplicate submissions, conversions and

reinstatements of prior clearances, and rejections.   Also the

DSS could not explain why 51,788 of 261,361 investigative cases

were opened during that period without electronic requests,

although using electronic requests was mandatory and was

important for maintaining control and improving efficiency.

Possible factors included case analysts manually entering paper

requests submitted into the CCMS; requesting agencies submitting

duplicate requests that case analysts had to manually annotate

as deleted; and the lack of active acknowledgement of request

receipts, which created the appearance that requests were being

lost.   The DSS acknowledged that its case analysts spent an

excessive amount of their time researching the status of

requests, decreasing the resources available for actually

completing cases.



The DSS and Office of the Assistant Secretary of Defense

(Command, Control, Communications and Intelligence) agreed with

the need to track all security clearance requests more

efficiently, but the necessary corrective actions depend

partially on improving the CCMS and implementing the JPAS.

Because the JPAS will not be operational until at least FY 2002,
                                                                  10


we continue to believe that DSS should be seeking interim

measures.   The confusion over clearance request status wastes

administrative resources and frustrates the DoD organizations,

contractors and individuals awaiting the clearances.   Coupled

with the slow turnaround time on clearance requests, these

frustrations account for the dismal customer satisfaction scores

for DSS in the DoD Biennial Review of Defense Agencies for 1999.

This survey, published in May 2000, indicated that only 14

percent of responding DoD organizations were satisfied with DSS

performance on personnel security investigations.



Case Control Management System



The CCMS is the core of the information systems used by DSS,

which are currently termed the Enterprise System.   The CCMS is

itself a collection of subsystems whose integration with each

other and with non-CCMS systems has been extremely difficult,

leading to many of the lingering problems with functionality and

reliability.   The need for a modern DSS system with the

capabilities intended for CCMS is undeniable; however, as has

often been the case over the last decade with DoD information

technology investments, execution of this system acquisition

project was flawed.   In retrospect, DSS and its contractors
                                                                  11


badly underestimated the technical risk and failed to test

adequately to manage those risks.



We are currently conducting an audit of the CCMS and plan to

issue a draft report within the next few weeks that will discuss

in detail the reasons for the system’s initial failure and what

needs to be done now.



As previously noted, DSS has prudently turned to the Air Force

for system acquisition management support and indications are

that CCMS is being stabilized.   DSS reported an average of 2,523

cases closed per day in August 2000, which is a positive sign,

assuming that this high level of performance can be sustained.

Although the widely publicized CCMS “crash” last July certainly

disrupted DSS operations for a few days and frequent repetitions

of that severity would be a major problem, it is unreasonable to

conclude from just one outage that CCMS must be scrapped.

However, we believe that it must continue to be intensively

managed as a high risk, DoD mission critical system.    We

understand that the Assistant Secretary of Defense (Command,

Control, Communications and Intelligence) intends to designate

CCMS as a major acquisition project, meaning there will be

oversight by an Integrated Process Team and the Chief

Information Officer at the Office of the Secretary of Defense
                                                                  12


level.   This is a prudent step, but does not in itself guarantee

close oversight.



The CCMS will reach a critical milestone in FY 2002, when the

Department will decide whether to deploy an overall Enterprise

System Architecture for DSS.   In the interim, CCMS must prove

that it can process an average of 2,500 case closings per day,

various initial design inefficiencies must be resolved, and

additional reliability and maintainability testing is needed.

In addition, DoD should aggressively benchmark CCMS against

systems performing similar functions in the public and private

sector, so that any viable alternatives are identified and fully

considered.



Other Future Reports



In addition to an audit report on CCMS, we are conducting

several other reviews related to the personnel security

investigation and adjudication processes.   These reviews are

being closely coordinated with ongoing General Accounting Office

evaluations in these areas to prevent duplication.   Ongoing or

planned efforts include the following:
                                                                    13


•   We plan to issue a final report on adjudication facility

    resources in the next couple weeks.   The focus will be that

    the Department needs to do more to identify future workload

    and budget adequate resources for the adjudication facilities.

    Otherwise, those facilities could become bottlenecks and

    efforts to improve production in the investigation phase of

    the process could be largely nullified.   We are awaiting the

    Department’s comments on our draft report.



•   We are auditing the Defense Clearance and Investigations

    Index, focusing primarily on this data base’s reliability.     We

    plan to issue a final report in January 2001.



•   We are auditing the process for adjudicating clearances for

    contractor employees and the related provisions for appeals.

    Again, we plan to provide a report early next year.



•   We plan to audit the acquisition of the Joint Personnel

    Adjudication System, starting next month.



End-to-End Focus Needed



As mentioned at the outset of this testimony, the enormous scope

of the Defense Personnel Security Program makes it an inherently
                                                                  14


difficult management challenge.   The dispersion of

responsibility for various portions of the security management

process across all DoD organizations and this fragmentation of

control over resources add significantly to this difficulty.     It

is important that the Department avoid piecemeal solutions, such

as its ill-fated attempt to address productivity and capacity

problems at DSS by arbitrarily limiting the number of security

clearance requests that DoD components were allowed to submit.

We believe that, with somewhat stronger recent support from the

Office of the Secretary of Defense, DSS is making reasonable

progress in its second agency reengineering attempt, although

not as quickly as planned earlier this year.   DSS will need

continued close oversight and adequate support.   In addition,

all other DoD organizations that play roles in personnel

security management must view the risks seriously and cooperate

to achieve end-to-end improvement.   It is particularly important

that lingering confusion about the size and definition of the

clearance backlog and the likely investigative and adjudication

workload over the next several years be eliminated, to enable

proper planning.



Again, thank you for considering our views on this important

subject.   This concludes my statement.
